                       0

   SELECTED GENERAL CONTROLS OVER THE RETIREE AND
    CASUALTY PAY SUBSYSTEM AT THE DEFENSE FINANCE
      AND ACCOUNTING SERVICE CLEVELAND CENTER




Report Number 98-098                       March 30, 1998




             Office of the Inspector General
                 Department of Defense
Additional    Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

Suggestions   for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller 1s fully protected.




Acronyms

DFAS                   Defense Finance and Accounting Service
DISA                   Defense Information Systems Agency
DRAS                   Defense Retiree and Annuitant Pay System
OMB                    Office of Management and Budget
                            INSPECTOR     GENERAL
                            DEPARTMENT   OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202




                                                                       March 30, 1998


MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE


SUBJECT: Audit Report on Selected General Controls Over the Retiree and Casualty
         Pay Subsystem at the Defense Finance and Accounting Service - Cleveland
         Center (Report No. 98-098)


         We are providing this audit report for information and use. The audit was
conducted in support of our financial statement audits required by the Chief Financial
Officers Act of 1990 and the Federal Financial Management Act of 1994. This report
is the first in a series of reports that will be issued on the Defense Retiree and
Annuitant Pay System.

        We considered management comments on a draft of this report in preparing the
final report. The Defense Finance and Accounting Service comments conformed to the
requirements of DOD Directive 7650.3; therefore, additional comments are not
required.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Kimberley Caprio, Audit Program Director, at
(703) 604-9139 (DSN 664-9139) or Mr. Dennis L. Conway, Audit Project Manager, at
(703) 604-9158 (DSN 664-9158). See Appendix D for the report distribution. The
audit team members are listed inside the back cover.




                                  Deputy Assistant Inspector General
                                            for Auditing
                        Office of the Inspector General, DOD

Report No. 98-098                                                        March 30, 1998
   (Project No. 6FG-0093)



      Selected General Controls Over the Retiree and Casualty Pay
        Subsystem at the Defense Finance and Accounting Service
                           Cleveland Center

                                Executive Summary

Introduction. The audit was conducted to support our audits required by the Chief
Financial Officers Act of 1990 and the Federal Financial Management Act of 1994.
This report is the first in a series of reports resulting from our audit of the Defense
Retiree and Annuitant Pay System. The report addresses our review of the general
controls over the Defense Finance and Accounting Service Cleveland Center Retiree
and Casualty Pay Subsystem (the Subsystem)--one of the two subsystems in the
Defense Retiree and Annuitant Pay System.

The Subsystem was used to account for 1.8 million retirees and to disburse an average
of $2.3 billion each month from the DOD Military Retirement Trust Fund in FY 1997.
The high volume and dollar value of transactions processed makes effective controls
over the Retiree and Casualty Pay Subsystem essential to ensuring the production of
authorized, accurate, complete, and reliable retired pay data for the Fund.

Audit Objectives. The overall objective was to evaluate general and application
controls over the Defense Retiree and Annuitant Pay System to ensure the production
of authorized, accurate, complete, and reliable data. This report addresses our review
of the general controls over the Retiree and Casualty Pay Subsystem. (General controls
are management controls that apply to the overall computer operations of an
organization). Also, we reviewed the management control program as it related to the
Retiree and Casualty Pay Subsystem.

Audit Results. The Defense Finance and Accounting Service had implemented
controls to include establishing an overall security program, implementing procedures
for developing and changing computer software (such as computer programs),
separating duties that could allow undetected and unauthorized or fraudulent activity to
occur, establishing controls to monitor the use of a system’s software, and establishing
procedures for preventing disruptions in service to customers. Additional controls were
needed for monitoring and updating the security program, limiting access to the
Subsystem, and providing for continuity of operations.

Although we did not detect unauthorized or fraudulent activity, the need for improved
controls over the Subsystem increases the possibility of such activity occurring.
Implementation of these controls would increase the level of confidence that managers
can place on the authorization, the accuracy, the completeness, and the reliability of
retired payments.
Additional management controls recommended in this report will:

        o reduce the possibility that fraudulent activity occurs or ensure it can be
detected in a timely manner, and
         o ensure the continuity of operations in case of a disaster. See Appendix A for
details on the management control program and Part I for a discussion of the audit
results.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Cleveland Center, update security documents, monitor access
to the Subsystem, and establish improved controls over the security of the Subsystem.

Management Comments. The Deputy Director for Finance, Defense Finance and
Accounting Service Cleveland Center, agreed to update security documents, monitor
daily reports of accesses to the Subsystem, and conduct periodic reviews to identify
deficiencies in the security controls over the Subsystem. The Defense Finance and
Accounting Service Cleveland Center requested clarification of information regarding
security clearance levels assigned by Center personnel for security officer positions.
The Center was concerned that the draft report inferred security clearance levels were
not designated for security officer positions.

The Center also requested the basis for the assistant information security officer
position to be designated critical sensitive, the same level of clearance as the
information security officer position. See Part I for a complete discussion of the
management comments and Part III for the complete text of the management
comments.

Audit Response. Our intent with regards to security clearance levels was not to infer
that clearance levels were not designated, but, to request that management review the
appropriateness of existing clearance levels. Further, in the information security
officer’s absence, the assistant officer would perform the information security officer’s
duties, therefore, we contend that the assistant officer should possess an equivalent
level of clearance. Defense Finance and Accounting Service comments were
responsive to the recommendations; therefore, no further comments are required.




                                                 ii
Table of Contents

Executive Summary                                             i

Part I - Audit Results
      Audit Background                                       2
      Audit Objectives
      Controls Over the Retiree and Casualty Pay Subsystem

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                16
        Management Control Program                           17
      Appendix B. Summary of Prior Coverage
      Appendix C. Major Categories of General Controls       :;
      Appendix D. Report Distribution                        23

Part III - Management Comments

         Defense Finance and Accounting Service Comments     26
Part I - Audit Results
Audit Background

     This report is the first in a series resulting from our ongoing audit of the
     Defense Retiree and Annuitant Pay System. The audit was conducted to support
     our audits required by the Chief Financial Officers Act of 1990 and the Federal
     Financial Management Act of 1994.

     On August 8, 1991, the DOD Corporate Information Management Financial
     Management Steering Committee approved the Defense Finance and Accounting
     Service (DFAS) proposal to standardize and consolidate DOD retiree and
     annuitant pay systems.

     The DFAS Cleveland Center Retired Pay System and the DFAS Denver Center
     Annuitant Pay System were chosen to be integrated as the Defense Retiree and
     Annuitant Pay System (DRAS). The Cleveland Center Retired Pay System was
     renamed the Retiree and Casualty Pay Subsystem and the Denver Center
     Annuitant Pay System was renamed the Annuitant Pay Subsystem.

     Retiree and annuitant pay transactions are processed on computers managed by
     the Defense Information Systems Agency @ISA). The DISA Defense
     Megacenter located at Chambersburg, Pennsylvania, processes transactions for
     the DFAS Cleveland Center Retiree and Casualty Pay Subsystem. The Defense
     Megacenter located at Denver, Colorado, processes transactions for the DFAS
     Denver Center Annuitant Pay Subsystem.

     This report discusses our review on selected general controls over the DFAS
     Cleveland Center Retiree and Casualty Pay Subsystem. The Subsystem was
     used to account for 1.8 million retirees and to disburse a monthly average of
     $2.3 billion from the DOD Military Retirement Trust Fund in FY 1997.



Audit Objectives

     The overall audit objective was to evaluate general and application controls over
     the Defense Retiree and Annuitant Pay System to ensure the production of
     authorized, accurate, complete, and reliable data. The report addresses our
     review of the general controls over the Retiree and Casualty Pay Subsystem.
     Also, we reviewed the management control program as it related to the Retiree
     and Casualty Pay Subsystem.
See Appendix A for a discussion of the audit scope, methodology, and the
management control program, and Appendix B for a summary of prior coverage
related to the audit objectives.




                                    3
            Controls Over the Retiree and Casualty
            Pay Subsystem
            The DFAS Cleveland Center needed to improve critical information
            system security controls over the Retiree and Casualty Pay Subsystem.
            Three categories of security controls needing improvement were
            monitoring and updating the security program, controls over access to
            the subsystem, and providing for continuity of operations.

            Information system security controls were not fully implemented or
            maintained because the DFAS Cleveland Center had not ensured
            compliance with some security requirements. The absence of these
            security controls increases the possibility for unauthorized or fraudulent
            activity to occur or to not be detected in a timely manner. Also, the
            absence of these controls lowers the confidence that managers can place
            on the authorization, the accuracy, the completeness, and the reliability
            of retired payments.



System of Internal Controls

     Office of Management and Budget (OMB) Circular No. A-127, “Financial
     Management Systems, n July 23, 1993, states that financial management systems
     shall include a system of internal controls that ensures resource use is consistent
     with laws, regulations, and policies; resources are safeguarded against waste,
     loss, and misuse; and reliable data are obtained, maintained, and disclosed in
     reports. These system-related controls form a portion of the management
     control structure required by OMB Circular No. A-123, “Management
     Accountability and Control, * June 2 1, 1995.

     Also, OMB Circular No. A-127 states that agencies shall plan for and include
     security controls in financial management systems in accordance with OMB
     Circular No. A-130, “Management of Federal Information Resources,”
     February 8, 1996. OMB Circular No. A-130 establishes a minimum set of
     controls to be included in automated information system security programs.

     DOD information systems should include a minimum of six major categories of
     general controls. General controls are management controls that apply to the
     overall computer operations of an agency or an organization and include the
     following:
                           Controls Over the Retiree and Casualty Pay Subsystem


           o establishing an overall security program,

           0 limiting access to automated systems,

           o implementing procedures for developing and changing computer
    software (for example, changing computer programs),
            o separating duties that could allow undetected and unauthorized or
    fraudulent activity to occur,

           o establishing controls to monitor the use of a system’s software, and

           o establishing procedures for preventing disruptions in service to
    customers.

    See Appendix C for a definition of the major categories of general controls.



Information System Controls

    Three categories of security controls needed improvement--monitoring and
    updating the security program, controls over access to the subsystem, and
    providing for continuity of operations.

    Monitoring and Updating Security-Related Changes. The DFAS Cleveland
    Center was not fully monitoring and updating security-related changes in its
    security program. Specifically, the risk assessment and the security plan were
    not updated when facilities, operations, and risks changed; security personnel
    did not have appropriate training, experience, or levels of security clearance;
    and the Retiree and Casualty Pay Subsystem was not accredited as required.

            Development of a Risk Assessment. OMB Circular No. A-130
    requires the development of a risk assessment that includes the value of a
    system, anal sis of threats and vulnerabilities, and the effect of current or
    proposed safyeguards.

    The DFAS Cleveland Center had developed a risk assessment as of June 9,
    1994; however, significant changes had occurred for processing retired
    payments. For example,

            o Marine Corps and Army retired pay accounts were relocated to and
    processed by the Cleveland Center as of July 1994 and April 1995, respectively
    (these two Military Services were responsible for 722,O retired pay accounts
    as of March 20, 1997), and

           o retired pay accounts processed at Bratenahl, Ohio, (a suburb of
    Cleveland, Ohio) were relocated to Chambersburg, Pennsylvania.

                                             5
Controls Over the Retiree and Casualty Pay Subsystem


      By updating and assessing changes affecting the Subsystem, the DFAS
      Cleveland Center could lessen potential risks to its data.
               Security Plans for Retired Pay Operations. The security plans for
      retired pay operations were not updated to include new facilities, operations,
      and risks. DFAS Regulation 8ooO. l-R, “Information Management Policy and
      Instructional Guidance,” August 23, 1996, states that the information security
      officer is responsible for ensuring that security plans are developed and
      maintained.

      The DFAS Cleveland Center had developed two security plans. One plan,
      dated July 9, 1993, provided guidance for securing the DRAS operations. The
      other plan, dated July 1994, provided guidance for securing computer
      operations at the three buildings that housed DFAS Cleveland Center personnel
      and computer equipment.

      Neither security plan had been updated to reflect current operating conditions.
      For example, the plan for DRAS operations stated that it provided security
      guidance for a computer in Cleveland, Ohio. However, computer processing of
      retired pay by DRAS was transferred on August 27, 1995, to the Defense
      Megacenter at Chambersburg, Pennsylvania. The other plan stated that when
      computer terminals were unattended, adequate security was provided by locked
      doors. However, computer terminals were located in offices without locked
      doors.

      The process of updating the security plans to reflect current facilities,
      operations, and risks of the Retiree and Casualty Pay Subsystem could identify
      deficiencies for corrective action that would improve security over the
      Subsystem’s data.

              Security-Related Training and Experience. The DFAS Cleveland
      Center did not fully ensure that personnel had the necessary security-related
      training and experience. The National Computer Security Center’s “A Guide to
      Understanding Information System Security Officer Responsibilities for
      Automated Information Systems, n May 1992, states that an information system
      security officer should have the following minimum qualifications to provide a
      solid technical background:

                 o two years of experience in a computer-related field,

                 0 one year experience in computer security, or mandatory attendance
                   at a computer security training course,

                 o familiarization with the operating system of the AIS (Automated
                   Information System), and

                 o a technical degree is desirable in computer science,   mathematics,
                   electrical engineering, or a related field.




                                                    6
                           Controls Over the Retiree and Casualty Pay Subsystem


Of the 11 information system security officers with retired pay responsibilities,
only 6 met at least 1 of the minimum requirements. The DFAS Cleveland
Center could identify better qualified information system security. officers by
evaluating the security-related training and experience of its candidates.

         Levels of Security Clearances. The levels of security clearances were
not reviewed before DFAS personnel were assigned to security duties. DOD
Regulation 5200.2-R requires each civilian position in DOD to be classified as
critical-sensitive, noncritical-sensitive, or nonsensitive.

The DFAS Cleveland Center had appropriately identified the information
security officer as occupying a critical-sensitive position and had conducted an
investigation into the background of the security officer. (An extensive
background investigation is normally conducted before assignment to critical-
sensitive jobs). However, the assistant information security officer’s position
was classified as noncritical-sensitive; a less extensive National Agency Check
with written inquiries was completed.

The classification of noncritical-sensitive would be appropriately assigned to
information system security officers (information system security officers are
subordinate to information security officers). In the absence of the information
security officer, the assistant information security officer would assume those
duties; therefore, the assistant information security officer’s position should also
be identified as critical-sensitive and be subject to the more extensive
background investigation.

Also, only 2 of the 11 information system security officers assigned to the
Retired Pay Directorate were occupying positions classified as noncritical-
sensitive. The positions for the other nine information system security officers
were classified as nonsensitive. (All information system security officer
positions should be classified as noncritical-sensitive because these officers have
access to personal information.) Further, neither the information security
officer nor the Security Directorate were aware of the sensitivity levels for these
information system security officers.

By having the sensitivity levels reviewed by qualified security personnel (that is,
personnel who have knowledge of the level of security responsibilities) and by
requiring the appropriate background investigations before assigning personnel
to security officer duties, the DFAS Cleveland Center would reduce its risk for
assigning inappropriate personnel to security duties.

       Accreditation of DRAS. DFAS Cleveland Center managers had not
conducted an accreditation of DRAS when significant changes had occurred.


‘Critical-sensitive
 _     .      _.    . positions
                             _. for
                                 _ information systems personnel include __    responsibilities
                                                                                     . . .      . .for
planning, directing, and implementing a computer secunty program.             NoncntEal-sensitive
positions include responsibilities for monitoring systems that allow access to or processing of
personal data. Also, personnel assigned to noncritical-sensitive   positions perform work that is
reviewed by personnel occupying critical-sensitive positions.    All other positions are classified
as nonsensitive positions.
                                                  7
Controls Over the Retiree and Casualty Pay Subsystem


      OMB Circular No. A- 130 requires managers to authorize the use of a system
      before beginning or significantly changing processing in it. After a system has
      been authorized (accredited) for use, it should be reaccredited every 3 years.

      In addition, the National Computer Security Center’s “Introduction to
      Certification and Accreditation,” January 1994, states that management must
      continually track and reassess the level of security in a system. Based on these
      reassessments, management must decide whether the level of security is
      sufficient to allow the system to continue to operate.
      No documentation was provided to show that DFAS Cleveland had accredited
      the Retiree and Casualty Pay Subsystem. As previously stated, significant
      changes had occurred that deserved reassessment of the level of security. In
      addition, the Defense Megacenter that processed retired pay was only accredited
      to operate on an interim basis.

      By analyzing and accrediting the Subsystem, DFAS Cleveland Center
      management could better ensure that the level of security over the operation of
      the Retiree and Casualty Pay Subsystem was sufficient. Reaccreditations should
      be made when significant changes occur.

      Controls Over Access to the Retiree and Casualty Pay Subsystem. Controls
      over access to the Retiree and Casualty Pay Subsystem were not always
      sufficient to protect the Subsystem and its data from potential misuse or
      destruction. Information security managers had not always produced or
      reviewed reports showing access to the Subsystem, and physical access to
      retired pay areas and computer facilities was sometimes not properly limited.

               Frequency of Users’ Accesses to the Subsystem. Information security
      managers could not fully monitor unusual activity because they were not
      consistently producing and reviewing reports showing the frequency of user
      access to the Subsystem. DOD Standard 5200.28-STD, “Department of
      Defense Trusted Computer System Evaluation Criteria,” December 26, 1985,
      states that controls must be in place to protect automated systems from
      unauthorized access. These controls should ensure that security procedures are
      in place to create, maintain, and protect an audit trail of access to a system’s
      programs and files.

      For the Retiree and Casualty Pay Subsystem, the Access Control Facility 2
      software--produced by Computer Associates International, Incorporated--
      provides this protection. The Access Control Facility 2 software can produce
      daily reports that provide an audit trail of access to a system.

      Despite the availability of these reports, DFAS Cleveland Center security
      personnel were not always producing or using the reports. Therefore, security
      personnel lacked an audit trail for detecting unusual or potentially illegal access
      to the Subsystem’s files.

      The DFAS Cleveland Center had developed DFAS-CL 52 15. l-G, “A User’s
      Guide to Computer Security,” July 1994, to provide guidance for monitoring

                                               8
                      Controls Over the Retiree and Casualty Pay Subsystem


user access to the Subsystem. The guide states that the Information Security
Office will review to ensure that new users actually use their privilege to access
a system. If new users have not accessed a system within a 2-week period, the
access privilege will be deleted. The guide also states that the Information
Security Office will delete the access privileges of any user that has not accessed
a system for a period of 90 days.

Special reports produced by the Access Control Facility 2 software showed how
frequently users had accessed a system. As of November 15, 1996, 90 of 107
new users (84.1 percent) had not accessed the system in more than 60 days. In
addition, no access was reported for 21 of the 107 new users (19.6 percent)
since December 1995. The Information Security Office had not removed these
new users’ access privileges.

For other than new users, no access was reported for 246 of 288 users
(85.4 percent) in over 120 days. In addition, no access was reported for 83 of
the 246 users (33.7 percent) since at least calendar year 1995. For three users,
no access was reported since calendar year 1994. At the time of this review,
the Information Security Office had not removed any of these users’ access
privileges. The absence of monitoring infrequent access to the system decreases
the opportunity for identifying and eliminating, in a timely manner, users that
have not demonstrated a need for accessing the retired pay subsystem.

Further, the DFAS Cleveland Center had not established controls to monitor
access to the system by some information system security officers. The DFAS
Cleveland Center had two information system security officers that could
independently establish a user’s account and authorize that user access to
specific files in the subsystem. (A user’s account includes information such as
the user’s name, Social Securit number, and position title). Therefore, these
information system security of Ptcers could grant themselves or other users
access to specific files in the Subsystem although that access was not needed or
authorized b management to perform retired pay duties. The Information
Security Of fyice had not produced any reports from the Access Control Facility 2
software to monitor unusual accesses granted by the information system security
officers.

More control over identifying unusual or potentially illegal access to the
subsystem could be achieved by the Information Security Office monitoring
accesses to the system and investigating unusual use of the system.

        Access to DFAS Offkes and the Retiree and Casualty Pay
Subsystem. Access to DFAS offices and the Retiree and Casualty Pay
Subsystem was not always properly limited. DOD Directive 5200.28-STD,
“Security Requirements for Automated Information Systems (AISs), n
March 21, 1988, states that information systems shall be protected to prevent
unauthorized disclosure, destruction, and modification.

The DFAS Cleveland Center had employees with computer access to the Retiree
and Casualty Pay Subsystem in the North Point Towers Building and in the
Anthony J. Celebreeze Federal Building (the Federal building) in Cleveland,
Ohio. DFAS shares working space in both buildings with other Federal
                                      9
Controls Over the Retiree and Casualty Pay Subsystem


      organizations; therefore, security was needed in both locations to protect the
      Retiree and Casualty Pay Subsystem.

      Unauthorized personnel could not obtain access to the retired pay offices in the
      North Point Towers Building without either an access code to the automated
      security system or an escort. However, improvements were needed in the
      security at the Federal building. The guards in the Federal building checked for
      identification badges, but they still allowed employees without badges and
      visitors unescorted access to the building. The DFAS Cleveland Center had
      recognized the need for better security at the Federal building and had obtained
      badges for use by visitors. However, the badges were not used.

      The Federal building housed DFAS computers that had access to the Retiree and
      Casualty Pay Subsystem. These DFAS computers were located in unlocked
      offices, and anyone allowed access into the Federal building could enter these
      offices. Although DFAS computers in the Federal building were not available
      for use by the public, a malicious act by a single unauthorized individual to
      defraud or destroy retired pay data could result in disastrous consequences to the
      integrity of the Retiree and Casualty Pay Subsystem.

      Access to DFAS offices and its computers in the Federal building could be
      restricted by establishing and enforcing better security measures such as issuing
      badges to visitors and locking doors to DFAS office areas.
      Supporting Critical Operations. Resources and facilities were not identified
      for supporting critical operations in the event of a disaster. DOD Directive
      3020.26, “Continuity of Operations (COOP) Policy and Planning,” May 26,
      1995, states that DOD Components shall designate alternate headquarters or
      emergency relocation sites.

      The DFAS Cleveland Center developed a contingency plan in October 1994 that
      addressed obtaining office space, equipment, and supplies in Cleveland, Ohio, if
      the current office space and equipment were rendered not useable by some
      event, such as a disaster. The DFAS Cleveland Center had not developed a
      plan for moving retired pay operations (such as personnel and equipment) to an
      alternate site geographically separated from Cleveland, Ohio, if a disaster
      occurs that affects the entire Cleveland, Ohio, metropolitan area. Unnecessary
      interruptions in the payment of more than 1.8 million retiree pay accounts could
      be avoided by identifying office space and equipment to support critical
      operations in the event of a disaster.



Compliance with Security Requirements

      Information system security controls were not fully implemented or maintained
      because the DFAS Cleveland Center had not ensured compliance with some
      security requirements for the Retiree and Casualty Pay Subsystem. DFAS
      Regulation 8000. l-R, “Information Management Policy and Instructional
                                              10
                         Controls Over the Retiree and Casualty Pay Subsystem


Guidance,” August 23, 1996, states that the Directors of each DFAS Center,
the Centers’ information security officers, and the information system security
staff have the first-line responsibility for ensuring compliance wrth information
system security requirements.

The information security officer at a DFAS Center is the key individual
responsible for ensuring that security controls are implemented. The
information security officer is responsible, in part, for ensuring that:

        o security policies and safeguards are enforced for all personnel having
access to an automated information system,

        o all users have been properly trained and are familiar with security
policies and procedures before being granted access to the system,

          o audits are reviewed periodically to identify unauthorized users’ actions,

       0 protective or corrective measures are implemented if a security
problem exists,

          o the security status of the system is reported to the Center’s director,

        o known or suspected vulnerabilities are evaluated to determine whether
additional safeguards are needed,

          o security plans are developed and maintained,

          o contingency plans are developed and tested at least annually,

       o documentation is developed and maintained to support accreditations of
automated information systems, and

          0 users are removed from access lists if no need exists for accessing a
system.

Furthermore, the Director of each DFAS Center has overall responsibility for
ensuring that appropriate security controls are implemented and maintained.
The Director, DFAS Cleveland Center, would have greater oversight and
assurance that security controls have been implemented and maintained by
requiring periodic reviews on the controls over the Retiree and Casualty Pay
Subsystem.




                                           11
Controls Over the Retiree and Casualty Pay Subsystem


Conclusion

      The inadequate security controls in the Retiree and Casualty Pay Subsystem
      increases the possibility for unauthorized or fraudulent activity to occur or to
      not be detected in a timely manner. Also, the inadequate controls lowers the
      confidence that managers can place on the authorization, the accuracy, the
      completeness, and the reliability of retired payments.

      Deficiencies were identified in monitoring and updating the security program,
      controls over access to the subsystem, and providing for continuity of
      operations. Prior audits on DFAS systems have reported the need for similar
      improvements as shown in this report. (See Appendix B for a summary of prior
      audit coverage.)

      Although we did not review controls over security in other systems at the DFAS
      Cleveland Center, the potential exists for weaknesses similar to those described
      in this report. The Director’s implementation of recommendations in this report
      should improve controls over all of the Center’s systems.



Recommendations, Management Comments, and Audit
Response

      We recommend that the Director, Defense Finance and Accounting Service
      Cleveland Center:

              1. Update the risk assessment and the security plans to reflect
      current facilities, operations, and risks. The plan should be updated when
      significant changes occur in facilities, operations, or risks.

              2. Evaluate the training and experience of personnel prior to their
      selection for security-related responsibilities to ensure that candidates have
      the minimum security training and experience qualifications.

             3. Review sensitivity levels of security personnel positions and
      require appropriate background investigations before assigning personnel
      to security positions.

             4. Correct any deficiencies that can prevent the accreditation of the
      retired pay subsystem. Conduct reaccreditations when significant changes
      occur.

                5. Monitor accesses to the system and investigate unusual use of the
      system.



                                               12
                       Controls Over the Retiree and Casualty Pay Subsystem


       6. Limit access to offkes and computer equipment in the Federal
building.

       7. Identify office space and equipment needed to support critical
operations at an alternate site in the event of a disaster.

        8. Conduct periodic reviews and correct any identified deficiencies
in the security controls over the Retiree and Casualty Pay Subsystem.

Management Comments. DFAS Cleveland Center management concurred,
stating that actions have been or will be taken by March 31, 1998, to implement
the recommendations.

Specifically, DFAS agreed to:

      o update the risk assessment and security plans and review the
documents annually or when significant changes occur;

       o select security officers that meet the National Computer Security
Center’s training and experience requirements;

        o review sensitivity levels of security personnel positions, identify
personnel without appropriate background investigations, and initiate
investigations for these personnel;

        o complete the reaccreditation program and conduct reaccreditations in
the future when significant changes occur;

       o develop procedures for monitoring daily reports of system accesses;

       o limit access to offices and computer equipment in the Federal building;

        o identify office space and equipment needed to support critical
operations at an alternate site in the event of a disaster and use the General
Services Administration, other DFAS Centers, DFAS operating locations, and
other Government agencies as alternate sites depending on the severity of the
disaster; and

        o conduct periodic reviews and correct deficiencies identified in the
security controls over the Retiree and Casualty Pay Subsystem through
procedures such as monitoring daily reports on accesses made to the Subsystem.

DFAS Cleveland Center management also requested clarification of information
relating to Recommendation 3. Management was concerned that the draft. report
inferred security clearance sensitivity levels were not designated for secunty
officer positions.

Also, DFAS Cleveland Center management requested the basis for the assertion
that the assistant information security officer position be designated critical


                                         13
Controls Over the Retiree and Casualty Pay Subsystem


      sensitive, the same level of clearance as the information security officer
      position.

      Audit Response.     Our intent in Recommendation 3 was not to infer that
      security clearance sensitivity levels did not exist, rather to request that
      management review the appropriateness of existing security levels. In the
      information security officer’s absence, the assistant officer would perform the
      information security officer’s duties and therefore should possess an equivalent
      level of clearance. Thus, we recommended the need to review sensitivity levels
      and to grant the same level of sensitivity to positions with the same duties.
      DFAS comments were responsive to the recommendations; therefore, no further
      comments are required.




                                              14
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology

    Scope and Methodology of Audit. The scope of the audit included reviews of
    general controls related to the Retiree and Casualty Pay Subsystem of the
    DRAS. Specifically, we:

           o reviewed security plans and assessments of risk prepared by DFAS
    personnel,

           o assessed employees’ experience and training qualifications on
    automated information systems and computer security,

           o evaluated controls for ensuring that accreditations were completed and
    updated,
           o analyzed reports showing frequency of access attempts into the Retiree
    and Casualty Pay Subsystem,

           o monitored access to DFAS offices and computer equipment,

            o assessed independence and authority of the information security officer
    and information system security officers to perform their assigned duties,

           o reviewed plans for continuing operations, and

           o interviewed security, human resource management, and retired pay
    personnel assigned to the DFAS Cleveland Center.

    Also, we reviewed policies and procedures related to establishing and
    maintaining general controls. This guidance was provided in regulations,
    directives, circulars, or standards developed by OMB, DOD, and the National
    Computer Security Center.

    The Retiree and Casualty Pay Subsystem was used to process transactions for
    1.8 million retirees and to disburse a monthly average of $2.3 billion from the
    DOD Military Retirement Trust Fund in FY 1997.

    Use of Computer-Processed Data. We used reports generated by security
    software packages to review the general controls established for the Retiree and
    Casualty Pay Subsystem. Data were used from the Access Control Facility 2
    security software--produced by Corn uter Associates International,
    Incorporated--to review the extent o P access allowed to key retired pay and
    security personnel. The Retiree and Casualty Pay Subsystem was used to
    process sensitive, unclassified information (that is, personal information such as
    Social Security numbers).

                                            16
                                                       Auuendix A, Audit Process

    We were granted the ability to access and read information in the Access
    Control Facility 2 security software. All testing of systems and security
    software was performed in a controlled environment with management’s
    approval. Based on those tests, we concluded that the data reviewed were
    sufficiently reliable to achieve the audit objectives and support the audit
    conclusions.
    Review Period and Standards. We performed this financial-related audit from
    October 1996 through November 1997 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DOD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.



Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. The scope of review of
    the management control program included reviews on the adequacy of
    management and security controls over the Retiree and Casualty Pay Subsystem.
    Specifically, the review evaluated DFAS management controls over
    establishment of a security program, access controls, software development and
    change controls, segregation of duties, system software controls, and service
    continuity. Also, the review evaluated the results of the DFAS Cleveland
    Center’s self-evaluation of those management and security controls during
    FY 1994 through FY 1996 and its annual statement of assurance.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DOD Directive 5010.38. The DFAS Cleveland
    Center’s security controls over the Retiree and Casualty Pay Subsystem could be
    improved. Specifically, improvements were needed in monitoring and updating
    the security program, controls over access to the Subsystem, and providing for
    continuity of operations.

    Six prior audits on DFAS have reported the need for similar improvements as
    discussed in this report. The repeat occurrence of these conditions suggests that
    a material weakness in security controls for information systems may exist
    throughout DFAS. (See Appendix B for a summary of prior audit coverage).

    The recommendations in this report, if implemented, will improve security
    controls over the Retiree and Casualty Pay Subsystem. A copy of the report
    will be provided to the senior official responsible for management controls at
    the DFAS Cleveland Center.



                                            17
Appendix A. Audit Process


      Adequacy of Management’s Self-Evaluation.        The DFAS Cleveland Center
      had conducted a self-evaluation on June 9, 1994, of the security controls on the
      Retiree and Casualty Pay Subsystem. The self-evaluation correctly identified
      the risk associated with the program as high. However, in its evaluation, the
      DFAS Cleveland Center did not identify the specific material management
      control weakness identified by the audit. Further, the evaluation should have
      been updated, when significant changes occurred, since it was a high risk area.




                                             18
Appendix B. Summary of Prior Coverage

   Six Inspector General, DOD, reports covered issues related to this audit.

   KG, DOD, Report No. 97-052, “Vendor Payments-Operation Mongoose,
   Fort Belvoir Defense Accounting Offke and Rome Operating Location,”
   December 23, 1996. The report concludes that management of security over
   payment data at the DFAS Operating Location at Rome, New York, did not
   comply with DOD security policy. As a result, unauthorized users could
   compromise or manipulate data without risk of detection. DFAS concurred
   with the recommendations and stated that it would:
          o assign a minimum number of individuals to maintain the password file
   and the security table;

         o establish procedures to remove terminated employees’ from the
   Computerized Accounts Payable System;

           o discontinue allowing users to both input and certify disbursement
   transactions;

           o distribute user access listings to supervisors each month to verify
   access rights; and

          o develop and implement a contingency plan to recover computer
   records in the event of a disaster.

   IG, DOD, Report No. 96-175, “Computer Security Over the Defense Joint
   Military Pay System,” June 25, 1996. The results in the report are
   summarized below.

          o User access to the military pay system at the DFAS centers in Denver,
   Colorado, and Indianapolis, Indiana, was not adequately controlled and limited.
   Therefore, resources were not secure and the integrity of pay data for Army and
   Air Force servicemembers was at risk.

           o Responsibilities for authorizing and controlling access to the military
   pay system were not clearly defined and understood at one center and two
   supporting organizations. Accordingly, access to the pay system and sensitive
   Army and Air Force pay data was improperly attained and security oversight
   was inadequate.

           o Administrative controls over the security of the pay system at the two
   centers and three supporting organizations needed improvement. As a result,
   the integrity of the military pay data was vulnerable.

   The report recommended that reviews be conducted at the two centers to ensure
   that user access was properly controlled and limited; improvements were made
   in defining responsibilities for authorizing and controlling access to the military
   pay system; security administrator positions were established with appropriate


                                            19
Appendix IL Summary of Prior Coverage


      authority and oversight capabilities; and organizations were required to identify
      and control all critical-sensitive positions.

      The Defense Information Systems Agency and DFAS concurred with the
      findings and recommendations.

      IG, DOD, Report No. 96-124, “Selected General Controls Over the Defense
      Business Management System,” May 21, 1996. The report states that
      computer security at the Defense Finance and Accounting Service Financial
      Systems Activity in Columbus, Ohio, did not adequately protect the Defense
      Business Management System development code from compromise. Also, the
      Financial Systems Activity did not adequately control program software changes
      to ensure that only authorized changes were made.

      As a result, these   general control weaknesses compromised the reliability of the
      Defense Business     Operations Fund financial statements. These weaknesses also
      increased the risk   of fraud, sabotage, and disruption to the operations of the
      DOD Components        that rely on the Defense Business Management System.

      The Defense Finance and Accounting Service concurred with recommendations
      made concerning computer security; software change management practices
      (except for a review of the existing software code); and disaster preparedness.
      The Defense Information Systems Agency concurred with the recommendations
      to complete, finalize, and test the disaster recovery plan.

      The Defense Logistics Agency agreed to update their disaster recovery plan but
      delayed performing a disaster recovery risk analysis until it could determine a
      new location for its computer laboratory. Also, the Defense Logistics Agency
      agreed with periodic testing of its disaster recovery plan.

      IG, DOD, Report No. 96-053, “Followup Audit of Controls Over Operating
      System and Security Software and Other General Controls for Computer
      Systems Supporting the Defense Fiince and Accounting Service,”
      January 3, 1996. The related report states that two Defense megacenters--
      Defense Megacenter, Saint Louis, Missouri, and Defense Megacenter, Denver,
      Colorado--had made commendable efforts to implement 22 of the 25 prior audit
      recommendations.

      At the Defense Megacenter, Denver, Colorado, the planned corrective actions
      on the remaining three recommendations were considered adequate, although
      incomplete. However, a new security software problem was identified during
      the audit that required corrective action by the Defense Information Systems
      Agency, Western Hemisphere at Fort Ritchie, Maryland.

      The Defense Information Systems Agency, Western Hemisphere and the
      Defense Megacenter, Denver, Colorado, concurred with all recommendations to
      complete corrective actions from prior audit reports.




                                               20
                                           .
                                  Annendur B. Summary of Prior Cover=

IG, DOD, Report No. 95-263, “Controis Over Operating System and
Security Software and Other General Controls for Computer Systems
Supporting the Defense Fiance and Accounting Service,” June 29,1995.
The report states that the Defense Finance and Accounting Service, the Defense
Information Systems Agency, and the Defense Logistics Agency made
commendable efforts to implement prior audit recommendations.

However, additional corrective actions were required in some areas. The
review followed up on 87 of the 112 recommendations made in prior audit
reports. Audit followup on 25 recommendations was deferred because the
organizations to which the recommendations were made were being consolidated
into various Defense Information Systems Agency megacenters.

Of the 87 recommendations, the Defense Finance and Accounting Service, the
Defense Information Systems Agency, and the Defense Logistics Agency had
taken adequate corrective actions on 67 recommendations. Additional
corrective actions were required on 20 recommendations.

The Defense Finance and Accounting Service and its Financial Systems Activity
at Denver concurred with the recommendations to improve physical security at
one Defense megacenter and to eliminate a security exposure on one system.
The Defense Information Systems Agency concurred with 11 recommendations
and partially concurred with 3 recommendations to improve computer security,
operational efficiency, and management controls at computer centers.

The Defense Logistics Agency concurred with all recommendations and stated
that it would develop and implement controls over supervisor calls (with
integrity exposures); export corrected supervisor calls to the Defense
Megacenter at Columbus, Ohio; and finalize procedures for managing the
processing and exporting of changes to its operating system.

IG, DOD, Report No. 94-060, “General Controls for Computer Systems at
the Information Processing Centers of the Defense Information Services
Organization,” March 18, 1994. The report states that the Defense Business
Management System’s users neglected to change their passwords within
180 days. In addition, numerous users had not changed their passwords in over
1 year.

These conditions had occurred because security personnel at the Defense
Information Services Organization-Columbus Center did not periodically review
the age of passwords nor deny access to users whose passwords had not been
changed in 180 days. The report recommended that employees be automatically
required to change their passwords every 90 days. The Defense Information
Services Organization concurred with the recommendation and stated that it
would install an automated password change facility that would force users to
change their passwords every 90 days.




                                      21
Appendix C. Major Categories of General
Controls

   We evaluated six major categories of general controls.  Those categories
   included the security program, access controls, software development and
   change controls, duty segregation, system software controls, and service
   continuity.

   Security Program.   The security program should provide a framework for
   managing risk, developing security policies, assigning responsibilities, and
   monitoring the adequacy of the organization’s computer-related controls.

   Access Controls.    Access controls limit or detect access to computer resources
   (such as data, equipment, and facilities) thereby protecting the resources against
   unauthorized modification, loss, and disclosure.

   Software Development and Change Controls. Software development and
   change controls prevent unauthorized programs or modifications to an existing
   program from being implemented.

   Duty Segregation.     Duty segregation includes policies, procedures, and an
   organizational structure established so that one individual cannot control key
   aspects of computer-related operations and thereby conduct unauthorized actions
   or gain unauthorized access to assets or records.
   System Software Controls.   System software controls limit and monitor access
   to the powerful programs and sensitive files that control the computer equipment
   and secure computer programs supported by the system.

   Service Continuity.    Service continuity controls ensure that, when unexpected
   events occur, critical operations continue without interruption or are promptly
   resumed and critical and sensitive data are protected.




                                           22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Finance and Accounting Service Cleveland Center
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                             23
Appendix D. Report Distribution


Non-Defense Federal Organizations
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:
   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                              24
Part III - Management   Comments
Defense Finance and Accounting Service
Comments

                     DEFENSE        FINANCE      AND     ACCOUNTING          SERVICL

                                     I93 I JLtCCISON     DAVIS   MIGWWAV
                                         ARLINGTON.    VA 2224042S    I
                                                                                          JAN   28 IS


    .   XERORANDUM FOR DIRECTOR, FINANCE AND ACCOUNTING DIRECTORATE,
                         INSPECTOR GENERAL, DEPARTRRNT OF DEFENSE

        SUBJECT:      DOD IG Draft Report, nSclcctcd General Controls
                      Over the Retiree and Casualty Pay Subsystem at
                      the Defense Finance  and Accounting Service-
                      Cleveland Center, 'Idated November 1, 1997
                      {Project 6X-0093)


             The comments to the findings and recommendations
        documented in the subject draft report are included as
        attachments to this memorandum.
                My point     of   contact is Patricia McGriff,              DFAS-HP/FM,
        (703)    607-5062.




                                     ,:yl”L   Brigadier Canera
                                    ,j
                                     !        Deputy Dire&cr:fk            Finance

        Attachments:
        As stated




                                                                 26
                    Defense Finance and Accounting                        Service Comments




Recommendation        1: The Defense Finance and Accounting Service -
Cleveland Center update Ihe risk assessmentand the security plans to reflect
current facilities, operations, and risks. The plan should k updated when
significant changesoccur in facilities. operations. Or risks.

DFAS-CL     Response:    Concur.

DFAS-CL Comments: The Cleveland Center is currently in the process of
certifying and accrediting all DFAS-CL systemsincluding the Retiree and
Casualty Pay Subsystem (RCPS). Tk Cettification and Accreditation (C&A)
process for the Defense Retiree and Ann&ant Pay System (DRAS), of which
RCPS is a pan, is about one third compleie. Once the C&A is oomplae-&
documents will be reviewed annually. or if siyificant cknger occur. such as
the proposed Defense Information SystemsAgency (DISA) move of Defense
Megacenters @MCs) scheduledfor mid-1998. Tk operations for RCPS are
targeted to move from DMC Chnmbershury(DMC-C) to DMC Mechanicsburg
(DMC-M) in mid-1998.
Estimated Completion Date: March 3 I. 1998.

Recommendatiun 2: The Defense Finance and Accounting Service -
Cleveland Center evaluate the training and experience of personnel prior to
their selection for security relared responsibilitiesto ensure rhat candidates have
the minimum security training and expericncc qualificntions

DFAS-CL     Response:    Concur.

 DFAS-CL Commtnb:           The Cleveland Center is currently in the process of
 restructuring its Information Syslem Security Officer (ISSO) and Terminal Area
 Security Oflicer (TASO ) posiGons There will be one ISSO for each system
owned by DFAS-CL. Tk TASO position will be responsiblefor sys~~n access
control. ISSO and TASO positionsfor the RCPS will be tilled based on
selection criteria provided by DFAS-CL’s Information Security OtIice (ISO).
The selection criteria utilized is in accordance with tk rcquiremcnts of the
National Computer Security Ccnler’s “A Guide to Understanding Informalion
System Security Oflicer Responsibilitiesfor Automated Information Systems ”
The selection criteria includes: two years of experience in a computer related
field. familiariudon with the operating systemof RCPS. good managcmcnt
skills and the ability to deal with all ltis of personnelfrom top management 10
individual users It is expected that tk Designated Approving Authority
(DAA) will issuethe official ISSWASO         appointment letters sometime in
January 1998. after the required background invcatigationshave been
performed. The DFAS-CL 1nformaGonSecurity ORice staff will conduct
computer security training after tk official appointmentsare announced by the
DAA.
Estimated   Completion   Date:     March 31. 1998.




                                          27
Defense Finance and Accounting Service Comments




             Recommendation 3: The lkfht          Finance and Accounting Service -
             Cleveland Center review sensitivity In& of .security personnel positions and
             require appropriate background investigations before assigning personnel to
             security positions.

             DFAS-CL Response: Concur.

             DFAS-CL Comments::        Sensitivity levels of security personnel positions will be reviewed
             by the Security Office, DFAS-CL Plans and Management Directorate in conjunction with
             the restructuring program for the ISSO wd TASK positions. In cases whele the
             appropriate investigarion has not been conducted, nction will be taken to initiate the
             investigation

            It is the employing management’s responsibility to complete the DFAS Form 113,
            “Position Designation Record.” It is the responsibility of the Customer Support Unit
            (CSU) of the Human Resources Office IO ensure that one is on record for each position.
            The DFAS Form I I3 identifies the sensitivity of the Position and should he completed
            when a position is created or when there are changes to the duties that call for a different
            sensitivity. This will be an ongoing process.

            Prior IO occupancy ofa position. the DFAS Form 114, “Pre-Appointment Investigative
            Requirement Check,” should be processed (from the CSU to the Security Office and
            return) to ensure the appropriate investigalive requirements arc met for the position being
            occupied This will be an ongoing process.

                 Additionally. request clarification ofthe following information provided in the
            DOD 1G Drafi Report, page 7 under “Levels of SecudyClcaranccs.”

                    The first paragraph, refers to the levels of security clearances noI being reviewed
            prior to &gnment     and mentions the DOD S200.2-R requirement that each civilian
            position be classified as critical sensitive, noncritical sensitive or nonsensitive. This
            indicates the p&lions have not been designaM Yet, the remainder ofthe section
            seemingly refers to inaccurate designations - an indication the positions have been
            designated but the DODIG disagrees with the designation

                     Paragraph three of the same section, states the assistant information sear&y
            officer’s (AISO) position should be desipted critical sensitive because in the absence of
            the information security officer those duties would be assumed by the AISO. Rquest the
            basis for this rquirement.

            Estimated Completion      Date March 31. 1998




                                                      28
                   Defense Finance and Accounting Service Comments




                                                                            3

Recommendation 4: ‘l%a Dcfcnse Fhunsc and Accounting Service -
Clcvcland Center correct any deficiencies that can prevent the accreditation of
the rctircd pay subsyrtcm. Conduct tc-accreditations when significant ohangcs
occur.

DFAS-CL     Response: Concur.

DFAS-CL Comments: The m-accreditation program for the RCPS is
currently in process. The initial 3 phws of the accreditation program arc
schcdulcd to bc completed by January 2 i, 199% The remaining pli,Ci of the
program will bc complctcd by the second quarter nf FY 1998.

Estimated   Completion   Date: Murh     31. 1998.



Recommendation 5: The Dcfensc Finance and Accounting Scrvicc -
Cleveland Center monitor a~~cssesto !hc system and investigate unusual use of
the system.

DFAS-CL Response: Concur

DFAS-CL Comments: The Access Control Facility 2 (ACFZ). which is the
security platform for RCPS at DMC-C. generates daily rcpons to help monitor
user access to RCPS. DMC-C regularly monitors the daily reports to determine
if there have been attempts by unauthorized users to access the system DPAS-
CL would be notified if unauthorized usage of the system does rppcar on the
ACF? reports. DFAS-CL was informed during recent discussions with DMC-C
that there has been no unusual or unauthorized USCof the RCPS system
Additionally. DAK-C informed DFAS-CL how to access the ACF2 daily
reports and DFAS-CL is now developing proccdurcr to monitor these reports
on a regular basis. Once the new procedures arc in place both DFAS-CL and
DMC-C will be monitoring the daily reports. Participation by both
orgnniutions will have the effect of a dual internal control. The proccdurcs ure
targeted to be in place by the end of Fcbruavy 1998.

Estimated Completion     Date: February 28. 1998.



Recommendation 6: The Defense Finance and Accounting Service -
Cleveland Center limit access to ofkcs and computer equipment in the Federal
Building.

DFAS-CL Response: Concur (Action Completed)




                                      29
Defense Fiance     and Accounting Service Comments




             DFAS-CL Comments:        DFAS-CL is a tenant in the AL Cdebrczze Federal
            Building (FOB), located in Cleveland. Ohio. Access to the FOB is controlled
            and monitored by the Federal Protective Service (FPS). Upon entrance to the
            FOB non-DOD visitors are required to go through a metal detector device and
            are aIso subject to a body scan by electronic baton. At the end of the day,
            doors arc locked by the last employee departing the work area and the FPS also
            conducts floor patrols to ensure doors are locked. Additionally, DFAS-CL
            employees are constantly briefed on security awareness issues by attending
            periodic meetings on security and also by ckcuonic messagesposted on the E-
            maii bulletin board.

            In addition to the general FOB safeguards descriied above, other physical and
            electronic controls are in place. These include: the issuance and personal
            display of the DFAS-CL security ID badge by Center employees. required DOD
            badges for enrrance into the building. cipher locks installed on computer room
            doors to ensure unauthorized access is denied. and password prctected
            computer systems to ensure against unauthorized system access

             Estimated Completion     Date: Action completed.



            Recommendation I: The Defense Finance and Accounting %-vice -
            Cleveland Center identity ofice space and equipment nrrdcd to soppon critical
            operations at an alternate site in the event of a disaster

            DFAS-CL     Response: Concur (Action Completed)


            DFAS-CL Comments: DFAS-CL already has a Continuity of Operations Plan
            (COOP) and a Living Disaster Recovery Plan System (LDRPS). Within these
            plans it specitically identifies and lists essential equipment needed for DFAS-CL
            to continue critical operations DFAS-CL does no1 speciftca)ly idcntif$ or
            secure office space until the need is id&tied based upon the emergency or
            disaster. However, space dternatives are available depending upon the
            emergency space requirements.


            If the need is partial or a small block of space is nccdcd. DFAS-CL would mryto
            accommodate itself internally by utilizing other areas within tk DFAS-CL
            allotted office space This would include the North Point operation which is a
            Etcility separate from tk FOB. If DFAS-CL could not meet its needs in this
            manner, the General Services Administration would be called upon to provide
            additional space within the FOB. In the event DFAS-CL operations were
            completely destroyed, other alternatives would be pursued. Other DFAS
            Centers and OPLOCs would be called upon to see whatassistance could be
            offered As a second alternative DF.AS-CL would look to other government




                                                            30
                          Defense Finance and Accounting Service Comments




agencia for help and as a third alternative DFAS-CL would work with the
GSA Chicago Region to find suitable local office space to meet our needs.

Estimated Completion Dntc: Action completed.

Recommendation 8: The Defense Fiice            and Accounting Service -
Cleveland Center conduct periodic reviews and correct any identified
deficiencies in the security controls over the Retiree and Casualty Pay
Subsystem.

DFAS-CL    Rupoose:    Concur.

DFAS-CL Commenta: DFAS-CL is already pursuing corrective action in
regard to this recommendation. Please see the DFAS-CL comments for
recommendation #5.

Estimated Completion Date: February 29. 1998
Audit Team Members

T’heFinance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

F. Jay Lane
Kimberley A. Caprio
Dennis L. Conway
Cynthia G. Williams
Marcia L. Ukleya
Deborah curry
Traci Y. Sadler
